KEMBA CREDIT UNION, INC.
P. O. BOX 14090
CINCINNATI, OH 45250
(800) 825-3622
FAX (513) 762-1619

CREDIT CARD AGREEMENT AND
DISCLOSURE STATEMENT
THIS IS YOUR CREDIT CARD AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-INLENDING DISCLOSURE STATEMENTS, VISA, SHARE SECURED VISA, VISA PLATINUM, VISA
GOLD, GCFCU VISA, MASTERCARD AND SHARE SECURED MASTERCARD AGREEMENTS, AND
ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR VISA, SHARE SECURED VISA,
VISA GOLD, VISA PLATINUM, GCFCU VISA, MASTERCARD AND SHARE SECURED MASTERCARD
CREDIT CARDS AND/OR OTHER ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS
AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

_______%

VISA:
This APR will vary with the market based on the Prime Rate.

_______%

VISA Gold:
This APR will vary with the market based on the Prime Rate.

_______%
GCFCU VISA: _______%
MasterCard: _______%
VISA Platinum:

Annual Percentage Rate
(APR) For Balance Transfers

_______%
Share Secured MasterCard: _______%
Share Secured VISA:

VISA: _______%
This APR will vary with the market based on the Prime Rate.
VISA Gold: _______%
This APR will vary with the market based on the Prime Rate.
VISA Platinum: _______%

Share Secured VISA: _______%

GCFCU VISA: _______%

Share Secured MasterCard: _______%

MasterCard: _______%
Annual Percentage Rate
(APR) For Cash Advances

VISA: _______%
This APR will vary with the market based on the Prime Rate.
VISA Gold: _______%
This APR will vary with the market based on the Prime Rate.
VISA Platinum: _______%

Share Secured VISA: _______%

GCFCU VISA: _______%

Share Secured MasterCard: _______%

MasterCard: _______%
Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of Your statement closing date. We will begin charging interest on
cash advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a Credit Card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

For MasterCard, Share Secured MasterCard and Share Secured VISA, $25.00
SEE TOP OF PAGE 2 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2013 - 2020. All Rights Reserved.

Page 1 of 4

OTBS 016CC FRB_WEB KEMB (1/19)
Rev. (1/20)

Fees (continued)
Transaction Fees




Foreign Transaction
Balance Transfer
Cash Advance

1.00% of each transaction in U.S. dollars.
2.00% of each transfer ($2.00 minimum - $50.00 maximum).
2.00% of each advance ($2.00 minimum - $50.00 maximum).

Penalty Fees



Returned Payment
Late Payment

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
SEE PAGE 1 for more important Information about Your Account

In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean KEMBA CREDIT UNION, INC. The words "You" and "Your" mean each person accepting this
Agreement. If this is a joint account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any VISA, Share Secured VISA, VISA Gold, Visa Platinum,
GCFCU VISA, MasterCard and/or Share Secured MasterCard Credit Card issued to You by Us and any duplicates or renewals We may issue. "Convenience Checks" mean
the special Account access devices that We may provide for Your use from time to time.

Current
Variable Rate
Index Value

Margin

Current
Daily Periodic
Rate

Current
Annual Percentage
Rate

VISA

__________%

__________%

__________%

__________%

VISA Gold

__________%

__________%

__________%

__________%

Share Secured VISA

__________%

__________%

VISA Platinum

__________%

__________%

GCFCU VISA

__________%

__________%

MasterCard

__________%

__________%

Share Secured MasterCard

__________%

__________%

Type of Credit Card

You understand the following terms constitute the Agreement:
PROMISE TO PAY. Your Account may be accessible through a variety of means
which could include advance request forms, vouchers, checks, charge slips, Credit
Cards, Convenience Checks and the like. Regardless of the access means, You
promise to pay Us all amounts charged to Your Account by You or by any user
who has access to Your Account, with actual, apparent or implied authority for
use of Your Account, including Finance Charges and other fees or charges
described herein.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for
the repayment of amounts owed. You understand that any Card which is requested
and approved, will be mailed only to the primary Borrower at the address that We
have on file for You. We may refuse to follow any instructions which run counter to
this provision.
OWNERSHIP. All access devices remain Our property and may be cancelled by Us
at any time without notice. You agree to surrender any such access device and to
discontinue its use immediately upon Our request.
USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances from Us or another financial
institution. If You are issued a cash advance draft, it will be imprinted with Your Card
and You will receive a copy of the draft. You agree not to use Your Card for illegal
transactions including, but not limited to, advances made for the purpose of gambling
and/or wagering where such practices are in violation of applicable state and/or
federal law.
Copyright Oak Tree Business Systems, Inc., 2013 - 2020. All Rights Reserved.

ISSUANCE OF PERSONAL IDENTIFICATION NUMBER. We will issue You a
Personal Identification Number (PIN) for use with Your Card. This PIN is confidential
and should not be disclosed to anyone. You may use Your PIN and Your Card to
access Your Account and all sums advanced will be added to Your Account balance.
In the event a use of Your PIN constitutes an Electronic Fund Transfer, the terms and
conditions of Your Electronic Fund Transfer Agreement may affect Your rights.
CREDIT LIMITS. You will be notified of Your specific Credit Limit for transactions made
under Your Account. Unless You are in default, Your Credit Limit will be self-replenishing
as You make payments on Your Account. You will keep Your unpaid balance within Your
Credit Limit, and You will pay any amount over Your Credit Limit on Our demand whether
or not We authorize the advance which caused You to exceed Your Credit Limit. Even if
Your unpaid balance is less than Your Credit Limit, You will have no credit available
during any time that any aspect of Your Account is in default.
ACCOUNT RESTRICTIONS. In order to receive and maintain a Share Secured VISA
or Share Secured MasterCard, You agree to give Us a specific pledge of shares which
will be equal to 125.00% of Your Credit Limit. In the event that You default on Your
Account, We may apply these shares toward the repayment of any amount owed on
Your Account.
FINANCE CHARGES. In the case of any transactions on Your Account, the balances
subject to the periodic Finance Charge are the average daily transactions balances
outstanding during the month (including new transactions). To get the average daily
balance, We take the beginning balance of Your Account each day, add any new
purchases, balance transfers, cash advances, insurance premiums, debit
adjustments or other charges and subtract any payments, credits and unpaid Finance

Page 2 of 4

OTBS 016CC FRB_WEB KEMB (1/19)
Rev. (1/20)

Charges or Late Charges. This gives Us the daily balance. Then, We add up all the
daily balances for the billing cycle and divide them by the number of days in the billing
cycle. The Finance Charge for a billing cycle is computed by multiplying the average
daily balance subject to a Finance Charge by the Daily Periodic Rate times the number
of days in the billing cycle.
You can avoid Finance Charges on purchases by paying the full amount of the entire
balance owed each month within 25 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the date
they are posted to Your Account, will be subject to a Finance Charge. Cash advances
and balance transfers are always subject to a Finance Charge from the date they are
posted to Your Account.
VISA AND VISA GOLD VARIABLE INTEREST RATE. All VISA and VISA Gold
transactions are subject to a Variable Rate which is based on the most recent Prime
Rate available as published in the Money Rates Section of The Wall Street Journal
and will be the most recent rate available on the last day of each calendar quarter of
each year ("Index") plus Our Margin. The Index plus the Margin equals the Interest
Rate. Changes in the Index will cause changes in the Interest Rate on the first day of
the first statement cycle following the end of each calendar quarter of each year.
Increases or decreases in the Interest Rate will cause like increases or decreases in
the Finance Charge and will affect the number of Your scheduled payments. Your
Interest Rate will never be greater than 18.00%.
MINIMUM MONTHLY PAYMENT. Though You need only pay the Minimum Monthly
Payments, You understand that You have the right to repay Your Account or make
larger payments at any time without penalty. You will only be charged periodic Finance
Charges to the date You repay Your entire Account balance. Any partial payment or
prepayment of Your Account will not delay Your next scheduled payment. All
payments to Us must be in lawful money of the United States.
Payments will be applied in the following order: (a) any Fees and Charges owing; (b)
any Finance Charges due; (c) the balance for cash advances; (d) the balance for
balance transfers; and then to (e) the balance for purchases.
Any unpaid portion of any Finance Charges and Late Charges will be paid by
subsequent payments and will not be added to the principal. You understand that any
payment that delays the repayment of Your unpaid balance will increase Your Finance
Charge and any payment that accelerates the reduction of Your unpaid balance will
decrease Your Finance Charges.
Minimum Monthly Payments for advances on Your Account will be an amount equal
to 2.00% of Your balance at the end of each billing cycle, subject to the lesser of
$10.00 or Your Account balance, plus any portion of the Minimum Payments shown
on prior statement(s) which remains unpaid, plus any amount that exceeds Your
approved Credit Limit.
CONSENSUAL LIEN ON SHARES. As permitted by law, You grant and
consent to a lien on Your shares or other deposit accounts with Us (other
than those deposits established under a governmental-approved tax deferral
plan such as an IRA or Keogh account) and any dividends due or to become
due to You from Us to the extent You owe on any unpaid Credit Card balance.
OTHER SECURITY. Collateral (other than household goods or any dwelling) given as
security under this Agreement or for any other loan You may have with Us will secure
all amounts You owe Us now and in the future if that status is reflected in the "Truthin-Lending Disclosure" in any particular Agreement evidencing such debt.
PERIODIC STATEMENT. On a regular basis, You will receive a statement showing
all transactions on Your Account including amounts paid and borrowed since Your last
statement. We will mail You a statement each billing cycle in which there is a debit or
credit balance or when a Finance Charge is imposed. We need not send You a
statement if We feel Your Account is uncollectible or if We have started collection
proceedings against You because You defaulted.
Each statement is deemed to be a correct statement of account unless You establish
a billing error pursuant to the Federal Truth-In-Lending Act.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under no
obligation to honor Your Convenience Checks if: (1) by paying a Convenience Check,
You would exceed Your Credit Limit; (2) Your Cards or Convenience Checks have
been reported lost or stolen; (3) Your Account has been cancelled or has expired; and
(4) a Convenience Check is used for payment on this or any other loan Account with
Us. If a postdated Convenience Check is paid and, as a result, any other Convenience
Check is returned unpaid, We are not responsible for any resulting loss or liability.
TRANSACTION SLIPS. Your periodic statement will identify the merchant, electronic
terminal or financial institution at which transactions were made, but sales, cash
advances, credit or other slips will not be returned with the statement. You will retain
Copyright Oak Tree Business Systems, Inc., 2013 - 2020. All Rights Reserved.

the copy of such slips furnished at the time of the transaction in order to verify Your
monthly statement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, the merchant will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or more,
refund it on Your written request or automatically deposit it to Your share account after
6 months.
LATE CHARGE. If Your payment is not received within 55 days of the Statement
Closing Date of the statement for which that payment is due, You will be charged the
lesser of: (a) the amount of the minimum payment due; or (b) $25.00.
ANNUAL MEMBERSHIP FEE. MasterCard, Share Secured MasterCard and Share
Secured VISA accountholders will be charged a non-refundable Annual Cardholder
fee of $25.00 per year for Your continued participation in that particular Credit Card
accessible program. This annual fee is required each year in order to continue Your
credit availability. We will automatically post this fee to Your Account on the first day
of the billing cycle in which it is due. You can avoid paying it by sending written
notification of termination of Your Account within 30 days following the mailing date of
the statement on which it appears.
OTHER FEES AND CHARGES. You will be charged the following fees and charges
associated with the use of Your Credit Card: (a) the lesser of $25.00 or the required
minimum payment amount for the returned payment for any check (or other
negotiable instrument used for payment) which is returned unpaid; (b) $5.00 for
each sales draft copy You request; (c) a cash advance fee FINANCE CHARGE in
an amount equal to 2.00% of the total amount advanced, subject to a minimum of
$2.00 and a maximum of $50.00; (d) a balance transfer fee FINANCE CHARGE in
an amount equal to 2.00% of the total amount transferred, subject to a minimum of
$2.00 and a maximum of $50.00; and (e) $20.00 for each Card that You request be
delivered on an expedited basis.
DEFAULT. You will be in default if: (a) You do not make any payment or perform any
obligation under this Agreement, or any other agreement that You may have with Us; or
(b) You should die, become involved in any insolvency, receivership or custodial
proceeding brought by or against You; or (c) You have made a false or misleading
statement in Your credit application and/or in Your representations to Us while You owe
money on Your Account; or (d) a judgment or tax lien should be filed against You or any
attachment or garnishment should be issued against any of Your property or rights,
specifically including anyone starting an action or proceeding to seize any of Your funds
on deposit with Us and/or (e) We should, in good faith, believe Your ability to repay Your
indebtedness hereunder is or soon will be impaired, time being of the very essence.
If You are in default, We may, without notice or demand, and to the extent permitted by law,
cancel Your rights under this Agreement, declare the entire unpaid balance immediately
due and payable and require the return of all Cards and other Account Access devices.
COLLECTION COSTS. To the extent permitted by law, You will reimburse Us for all of
Our costs and expenses, including reasonable attorneys' fees incurred in the course of
collecting any amounts owed under this Agreement or for the recovery of any collateral.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit
under this Agreement. However, You may purchase any credit insurance available
through Us and have the premiums added to the outstanding balance of Your
Account. If You elect to do so, You will be given the necessary disclosures and
documents separately. Any credit insurance premiums will be charged to Your
Account as a purchase.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments, or any
other payments, even if they are marked "paid in full" without losing any of Our rights
under this Agreement. If any provision of this or any related agreement is determined
to be unenforceable or invalid, all other provisions remain in full force and effect.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your
Account. You will not be liable for the unauthorized use that occurs after You notify
Us orally and in writing at the address or telephone number shown in this
Agreement, of the loss, theft, or possible unauthorized use. In any case, Your
liability will not exceed $50.00.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly in writing if You
move or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal Truth-InLending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.

Page 3 of 4

OTBS 016CC FRB_WEB KEMB (1/19)
Rev. (1/20)

REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable for
the refusal or inability of merchants, financial institutions and others to accept the
Cards or Convenience Checks, or electronic terminals to honor the Cards or complete
a Card withdrawal, or for their retention of the Cards or Convenience Checks.
LOST CARDS. To report lost or stolen Credit Cards, You will call Us immediately at
(800) 825-3622 or (513) 762-5070 or, You can write to Us at P. O. Box 14090,
Cincinnati, OH, 45250-0090.
FOREIGN TRANSACTIONS. For transactions initiated in foreign currencies, the
exchange rate between the transaction currency and the billing currency (U.S.
dollars) will be: (a) a rate selected by VISA and/or MasterCard, as is applicable,
from the range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate VISA or MasterCard
itself receives; or (b) the government-mandated rate in effect for the applicable
central processing date.

•

At least 3 business days before an automated payment is scheduled, if You want
to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1) Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
2) Within 90 days of receiving Your letter, We must either correct the error or explain
to You why We believe the bill is correct.
While We investigate whether or not there has been an error:

For all transactions, You will be charged 1.00% calculated on the final
settlement amount.

•

EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using the Card contain terms, this Agreement is
the contract which solely applies to all transactions involving Your Account.

•

CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the Application and Your Credit Card, by using the Card, by using Your
Account or by authorizing another to use Your Account, You agree to accept its terms.

•

INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act" which is delivered to You and relates to
this Agreement is an integrated part of this Agreement and Disclosure.

•

UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts to
update personal information or other financial information related to You, at Our request.
You also agree that We may, from time to time, as We deem necessary, make inquiries
pertaining to Your employment, credit standing and financial responsibility in accordance
with applicable laws and regulations. You further agree that We may give information
about the status and payment history of Your Account to consumer credit reporting
agencies, a prospective employer or insurer, or a state or federal licensing agency
having any apparent legitimate business need for such information.
TERMINATION. Subject to applicable law, either You or We may cancel Your Account
at any time whether or not You are in default. You will, in any case, remain liable to
pay any unpaid balances according to the terms of this Agreement.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Ohio except to the extent that such laws are inconsistent with controlling
federal law.

•

We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue to
charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for the
remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:

•

If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a statement
of the amount You owe and the date payment is due. We may then report You as
delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must write to Us
within 10 days telling Us that You still refuse to pay. If You do so, We cannot report
You as delinquent without also reporting that You are questioning Your bill. We must
tell You the name of anyone to whom We reported You as delinquent, and We must
let those organizations know when the matter has been settled between Us. If We do
not follow all of the rules above, You do not have to pay the first $50.00 of the amount
You question even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the merchant,
You may have the right not to pay the remaining amount due on the purchase. To use
this right, all of the following must be true:

Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown in
this Agreement. In Your letter, give Us the following information:
•
•
•

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.

You must contact Us:
• Within 60 days after the error appeared on Your statement.

Copyright Oak Tree Business Systems, Inc., 2013 - 2020. All Rights Reserved.

1) The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more than
$50.00. (Note: Neither of these are necessary if Your purchase was based on an
advertisement We mailed to You, or if We own the company that sold You the
goods or services.)
2) You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed above.
After We finish Our investigation, We will tell You Our decision. At that point, if We think
You owe an amount and You do not pay, We may report You as delinquent.

Page 4 of 4

OTBS 016CC FRB_WEB KEMB (1/19)
Rev. (1/20)

PRICING INFORMATION ADDENDUM –
CREDIT CARD AGREEMENT
AND DISCLOSURE STATEMENT

KEMBA CREDIT UNION, INC.
P. O. BOX 14090
CINCINNATI, OH 45250
(800) 825-3622
FAX (513) 762-1619

THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR VISA, SHARE
SECURED VISA, VISA GOLD, VISA PLATINUM, GCFCU VISA, MASTERCARD AND SHARE
SECURED MASTERCARD CREDIT CARDS. PLEASE BE CERTAIN TO READ THIS ADDENDUM
CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

10.24%

VISA:
This APR will vary with the market based on the Prime Rate.

7.99%

VISA Gold:
This APR will vary with the market based on the Prime Rate.

9.90%
GCFCU VISA: 12.90%
MasterCard: 13.90%
VISA Platinum:

Annual Percentage Rate
(APR) For Balance Transfers

18.00%
Share Secured MasterCard: 18.00%
Share Secured VISA:

VISA: 10.24%
This APR will vary with the market based on the Prime Rate.
VISA Gold: 7.99%
This APR will vary with the market based on the Prime Rate.
VISA Platinum: 9.90%

Share Secured VISA: 18.00%

GCFCU VISA: 12.90%

Share Secured MasterCard: 18.00%

MasterCard: 13.90%
Annual Percentage Rate
(APR) For Cash Advances

VISA: 10.24%
This APR will vary with the market based on the Prime Rate.
VISA Gold: 7.99%
This APR will vary with the market based on the Prime Rate.
VISA Platinum: 9.90%

Share Secured VISA: 18.00%

GCFCU VISA: 12.90%

Share Secured MasterCard: 18.00%

MasterCard: 13.90%
Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of Your statement closing date. We will begin charging interest on
cash advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a Credit Card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

For MasterCard, Share Secured MasterCard and Share Secured VISA, $25.00
SEE TOP OF PAGE 2 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2013-2020. All Rights Reserved.

Page 1 of 2

OTBS 016A CC FRB_WEB KEMB (1/19)
Rev. (4/20)

Fees (continued)
Transaction Fees




Foreign Transaction
Balance Transfer
Cash Advance

1.00% of each transaction in U.S. dollars.
2.00% of each transfer ($2.00 minimum - $50.00 maximum).
2.00% of each advance ($2.00 minimum - $50.00 maximum).

Penalty Fees



Returned Payment
Late Payment

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
SEE PAGE 1 for more important Information about Your Account

FINANCE CHARGES. In the case of any transactions on Your Account, the balances subject to the periodic Finance Charge are the average daily transactions balances
outstanding during the month (including new transactions). To get the average daily balance, We take the beginning balance of Your Account each day, add any new purchases,
balance transfers, cash advances, insurance premiums, debit adjustments, or other charges and subtract any payments, credits, and unpaid Finance Charges or Late Charges.
This gives Us the daily balance. Then, We add up all the daily balances for the billing cycle and divide them by the number of days in the billing cycle. The Finance Charge for
a billing cycle is computed by multiplying the average daily balance subject to a Finance Charge by the Daily Periodic Rate times the number of days in the billing cycle.
You can avoid Finance Charges on purchases by paying the full amount of the entire balance owed each month within 25 days of Your statement closing date. Otherwise, the
new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Cash advances and balance
transfers are always subject to a Finance Charge from the date they are posted to Your Account.
VISA is subject to a current Daily Periodic Rate of 0.028054% (corresponding ANNUAL PERCENTAGE RATE 10.24%).
VISA Gold is subject to a current Daily Periodic Rate of 0.021890% (corresponding ANNUAL PERCENTAGE RATE 7.99%).
Share Secured VISA is subject to a Daily Periodic Rate of 0.049315% (corresponding ANNUAL PERCENTAGE RATE 18.00%).
VISA Platinum is subject to a Daily Periodic Rate of 0.027123% (corresponding ANNUAL PERCENTAGE RATE 9.90%).
GCFCU VISA is subject to a Daily Periodic Rate of 0.035342% (corresponding ANNUAL PERCENTAGE RATE 12.90%).
MasterCard is subject to a Daily Periodic Rate of 0.038082% (corresponding ANNUAL PERCENTAGE RATE 13.90%).
Share Secured MasterCard is subject to a Daily Periodic Rate of 0.049315% (corresponding ANNUAL PERCENTAGE RATE 18.00%).
VISA AND VISA GOLD VARIABLE INTEREST RATE. All VISA and VISA Gold transactions are subject to a Variable Rate which is based on the most recent Prime Rate
available as published in the Money Rates Section of The Wall Street Journal and will be the most recent rate available on the last day of each calendar quarter of each year
("Index") plus Our Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index will cause changes in the Interest Rate on the first day of the first statement
cycle following the end of each calendar quarter of each year. Increases or decreases in the Interest Rate will cause like increases or decreases in the Finance Charge and
will affect the number of Your scheduled payments. Your Interest Rate will never be greater than 18.00%.
The applicable Margins are as follows: VISA 6.99%; and VISA Gold 4.74%.

Copyright Oak Tree Business Systems, Inc., 2013-2020. All Rights Reserved.

Page 2 of 2

OTBS 016A CC FRB_WEB KEMB (1/19)
Rev. (4/20)

